PX

C@QCKLE

2311 Douglas Street : E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B riefs contact@cocklelegalbriefs.com
1-800-225-6964 Web Site

(402) 342-2831

www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 19-400

GARMIN USA, INC., ET AL.,
Petitioners,
v.
CELLSPIN SOFT, INC.,
Respondent.

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), J certify that the MOTION FOR LEAVE TO
FILE BRIEF AND BRIEF OF THE COMPUTER & COMMUNICATIONS INDUSTRY
ASSOCIATION AND ELECTRONIC FRONTIER FOUNDATION AS AMICI CURIAE IN
SUPPORT OF PETITIONERS in the above entitled case complies with the typeface requirement
of Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text
and 10 point for the footnotes, and this brief contains 3539 words, excluding the parts that are
exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 25th day of October, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

:
General Notary
My Commission Expires Nov 24, 2020 ©

Notary Public Affiant

 

38806
